HHS/OIG-Audit--"Report on the Audit of the Working Capital Fund for Fiscal Year 1993, (A-17-93-00027)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Report of the Audit of the Working Capital Fund for Fiscal Year 1993,"
(A-17-93-00027)
June 6, 1994
Complete Text of Report is available in PDF format
(6.3 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of Price Waterhouse's (PW) audit of the Office
of the Secretary's Working Capital Fund (Fund) for Fiscal Year 1993. The PW
concluded that the Fund's financial statements are presented fairly in conformity
with generally accepted accounting principles, except that the fund did not
perform an adequate physical inventory of its property and equipment. Appropriate
actions, including a physical count of all Fund property, are being taken to
correct this deficiency. With regard to compliance with laws and regulations,
PW reported that their tests of compliance disclosed no material instances of
noncompliance. Finally, PW did recommend needed improvements to some internal
controls.